No.
In the

Supreme Court of the United States

Mitchell L. Christen,
Petitioner
V.

State of Wisconsin
Respondents

On Petition for Writ of Certiorari to the Supreme Court of
Wisconsin

Petition for Writ of Certiorari

Steven Roy
Counsel of Record
Wisconsin State Bar No. 1115155
1310 O'Keeffe Ave. #315
Sun Prairie, WI 53590
608.571.4732
Steven@stevenroylaw.com

1

Question Presented
Wisconsin Statute §941.20(1)(b) criminalizes possessing a
firearm while under the influence of alcohol. Mitchell Christen had
five drinks over an evening, and later armed himself with a firearm in
response to an ongoing confrontation in his home. May the State
criminalize Mr. Christen's otherwise constitutionally protected actions
purely on the basis of his legal intoxication?

1

Parties to the Proceeding
The petitioner is Mitchell Christen who was the defendant in
the circuit court, defendant-appellant in the Wisconsin Court of
Appeals, and the defendant-appellant-petitioner in the Supreme Court
of Wisconsin.
The respondent is the State of Wisconsin, who was the the
plaintiff in the circuit court, and the plaintiff-respondent in subsequent
appellate proceedings.
Statement of Related Proceedings
This case arises from the following proceedings:
• State of Wisconsin v. Mitchell Christen, 2021 WI 39, 396 Wis. 2d 705,
958 N.W.2d 746 (Wis.) (opinion affirming the judgement of
conviction)
• State of Wisconsin v. Mitchell Christen, 2020 WI App 19, 391 Wis. 2d
650, 943 N.W.2d 357 (Wis. Ct. App.) (opinion affirming the
judgement of conviction)
• State of Wisconsin v. Mitchell Christen, Dane County 2018-CM-198
There are no other proceedings in state or federal trial or appellate
courts, or in this Court directly related to this case within the meaning
of this Court's Rule 14.1(b)(iii).

2

Table of Contents
Question Presented
1
Parties to the Proceeding
2
Statement of Related Proceedings
2
Table of Authorities
4
Petition for Writ of Certiorari
6
Opinions Below
9
Jurisdiction
9
Constitutional, Statutory, and Regulatory Provisions Involved
9
Statement of the Case
10
Reasons for Granting the Petition
13
I. This Case Presents an Ideal Vehicle For in-Depth Constitutional
Analysis
14
II. The Lower Courts' Failure To Honor the Plain Language of Heller
and McDonald Has Led to Confusion, Chaos, and Disorder;
Granting Certiorari Is Necessary To Restore Reasoned Analysis to
Second Amendment Claims
15
III. Wisconsin Statute §941.20(1)(B) Is Plainly Unconstitutional As
Applied to Mr. Christen
20
Conclusion
24

3

Table of Authorities
Cases
23
Attorney General of New York v. Soto-Lope,476 U.S. 898 (1986)
13
Caetano u. Massachusetts
136 S. Ct. 1027 (2016)
18
Clark u. Jeter
486 U.S. 456 461 (1988)
6, 7, 13, 20, 22, passim
District of Columbia u. Heller
544 U.S. 570 (2008)
17
Ezell v. City of Chicago
651 F.3d 684 (7th Cir. 2011)
7, 13
Heller v. District of Columbia
670 F. 3d 1244 (D.C. Cir. 2011) (Heller II)
18
Lawrence u. Texas
539 U.S. 558 (2003)
McDonald v. City of Chicago
6, 23, 24
561 U.S. 742 (2010)
Miller v. Johnson
23
515 U.S. 900 (1995)
Muscarello v. United States
20
524 U.S. 125, 143, 118 S. Ct. 1911 (1998)
Nat'l Rifle Ass'n of Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms,
& Explosives
7, 18
700 F. 3d 185 (5th Cir. 2012)
N.Y. State Rifle & Pistol Ass'n v. City of New York
14
140 S.Ct. 1525 (2020)
N.Y. State Rifle & Pistol Ass'n v. City of New York
17
883 F.3d 45 (2d Cir. 2018)
Perry Educ. Ass'n v. Perry Local Educators' Ass'n
18
460 U.S. 37 (1983)
Reno u. Flores
18
507 U.S. 292 (1993)
Rogers v. Grewal
6, 7
140 S. Ct. 1865 (2020)
San Antonio Indep. Sch. Dist. u. Rodriguez
18
411 U.S. 1(1973)

4

Shapiro v. Thompson

18

394 U.S. 618 (1969)

State of Wisconsin u. Mitchell Christen

8, 9, 19, 20, passim

396 Wis. 2d 705 (Wis. 2021)

State of Wisconsin v. Mitchell Christen

9

391 Wis. 2d 650 (Wis. Ct. App. 2020)

State u. Weuer

22

163 Ohio St.3d 125 (2020)(Ohio)

Silvester u. Becerra

13

138 S. Ct. 945 (2018)

Troxel u. Granville

18

530 U.S. 57 (2000)

United States v. Chester

7, 19

628 F. 3d 673 (4th Cir. 2010)

United States v. Marzzarella

7, 15, 19

614 F.3d 85 (3d Cir. 2010)

United States v. Masciandaro

7, 19

638 F.3d 458 (4th Cir. 2011)

Zauderer v. Office of Disciplinary Counsel

18

471 U.S. 626, (1985)
Constitutional Provisions
.6, 7, 8, 9, passim

U.S. Const. Amed. II
Statutory Provisions

9, 20, 24
24
24

Wis. Stat. §941.20(1)(b)
Wis. Stat. §940.24
Wis. Stat. §941.20(1)(a)

5

Petition for Writ of Certiorari
In 2008, this Court issued the decision in District of Columbia v.
Heller, affirming the Second Amendment codifies the individual right
to keep and bear arms. District of Columbia v. Heller, 544 U.S. 570
(2008). This Court subsequently confirmed this is a fundamental right
and is applicable to both state and local governments. McDonald v.
City of Chicago, 561 U.S. 742 (2010).1 While Heller and McDonald
affirmed this individual right, the lower courts have struggled to
determine the proper approach for analyzing Second Amendment
challenges. Rogers v. Grewal, 140 S. Ct. 1865, 1866 (2020) (Thomas, J.,
dissenting from denial of certiorari).
Heller did not provide a precise standard for evaluating all
Second Amendment claims, but provided the general frame work,
recognizing "the Second Amendment...codified a pre-existing right"
which was "enshrined with the scope [it was] understood to have when
the people adopted it". Heller, 544 at 592, 634. The lower courts have
consistently disregarded this framework, and have instead applied a
"tripartite binary test with a sliding scale and a reasonable fit." Rogers
1 In New York State Rifle & Pistol Association, Inc., Robert Nash, Brandon Koch, v.
Kevin P. Bruen (No. 20-843) this Court has been asked to resolve the circuit split
regarding whether the Second Amendment applies outside of the home. The
regulations in question are so restrictive, they are unconstitutional under any mode
of constitutional analysis, similar to those in Heller. The law in this case is less
restrictive than those presented in New York State Rifle & Pistol Association, Inc.,
Robert Nash, Brandon Koch, v. Kevin P. Bruen, and present the Court an opportunity
to delve further into the Constitutional analysis of Second Amendment claims.
6

v. Grewal, 140 at 1867 (Internal citations omitted). This test bears
little resemblance to Heller's directive to the lower courts to analyze
the text, history, and tradition in analyzing Second Amendment
claims. Heller v. District of Columbia, 670 F. 3d 1244, 1285, 399 U.S.
App. D.C. 314 (D.C. Cir. 2011) (Heller II) (Kavanaugh, J., dissenting).
Equally alarming is the division amongst the lower courts as to
what the "core" of the Second Amendment is. Heller plainly states the
Second Amendment "guarantee [s] the individual right to possess and
carry weapons in case of confrontation." Heller, 544 at 592. Despite
this clear language, the Fifth Circuit held the core is the right of a lawabiding, responsible adult to use a handgun to defend his or her home
and family, while the Third Circuit recognizes the core right only as
defense of hearth and home. Nat'l Rifle Ass'n of Am., Inc. v. Bureau of
Alcohol, Tobacco, Firearms, & Explosives, 700 F. 3d 185, 195 (5th Cir.
2012); United States u. Marzzarella, 614 F.3d 85, 94 (3d Cir. 2010). The
Fourth Circuit appears to be internally divided, first stating a broader
view of the right before narrowing the right a year later. United States
v. Chester, 628 F. 3d 673, 683 (4th Cir. 2010); United States u.
Masciandaro, 638 F.3d 458 (4th Cir. 2011). The Supreme Court of
Wisconsin has ignored this Court's instruction the Second Amendment
protects the right to possess a firearm, and concluded unless a jury
determines an individual reasonably acts in self-defense, the "core" of
7

the Second Amendment is not implicated. State v. Christen, 396 Wis.
2d 705, 732, 958 N.W.2d 746, 2021 WI 39 (Wis.)(2021).
The decisions of the lower courts have led to an enumerated
fundamental right in disarray. This case presents the opportunity to
provide guidance on the proper approach for evaluating Second
Amendment claims. The Court should grant certiorari to correct the
lower courts' misguided efforts and restore reasoned analysis to the
highly flawed methodologies permeating the lower courts.

8

Opinions Below
The Wisconsin Supreme Court's decision affirming the the
decision of the court of appeals is reported at State v. Christen, 396
Wis. 2d 705, 958 N.W.2d 746, 2021 WI 39, and has been reproduced at
App.101-129. The court of appeals opinion affirming the decision of the
circuit court is unpublished, but can be found at 2020 WI App 19, 391
Wis. 2d 650, 943 N.W.2d 357, and is reproduced at App.130-135. The
circuit court's oral decision is reproduced at App.136-148.
Jurisdiction
The Supreme Court of Wisconsin issued its opinion on May 4,
2021. A copy of this decision is reproduced at Appendix 101-129. On
March 19, 2020 this Court extended the deadline to file any petition of
certiorari due on or after that date to 150 days. The Supreme Court of
Wisconsin's decision predates this Court's July 19, 2020 recision of the
March 19, 2020 order. The jurisdiction of this Court is invoked under
28 U.S.C. §1257(a).
Constitutional. Statutory. and Regulatory Provisions Involved
The Second Amendment to the United States Constitution and
relevant portions of the Wisconsin statutes are reproduced at App.
149-153.

9

Statement of the Case
In early 2018, Mr. Christen was living with Mr. Brandon
Hughes and Mr. Chase Ravesteijn. Mr. Hughes, one of Mr. Christen's
"drinking buddies" had convinced Mr. Christen to move in with him.
Prior to February, the living situation had been in severe decline. Mr.
Hughes had previously shoved Mr. Christen and hit Mr. Ravesteijn
when he had too much to drink. Mr. Hughes had also told Mr. Christen
to shoot him on another occasion when he was drunk.
On February 2, 2018 Mr. Christen had enough of his roommates'
alarming and confrontational behaviors and decided to move out. He
called the person he would be living with to see if he could come pick
him up that night, but Mr. Christen's new roommate had been
drinking that evening and made the wise decision not to drive while
under the influence. Mr. Christen joined his uncle for dinner and
enjoyed a few drinks. After dinner, Mr. Christen went to a bar, the
Tipsy Cow, and then walked back to the shared apartment. Mr.
Christen estimated he consumed four beers and one shot over the
course of the entire evening.
When Mr. Christen returned, Mr. Hughes and Mr. Ravesteijn
were at the apartment drinking. Mr. Christen asked his roommates to
stop eating and throwing out his food which led to an argument

10

between the three of them. Mr. Hughes and Mr. Ravesteijn then left
and continued drinking. Mr. Hughes and Mr. Ravesteijn returned later
that night and were joined by two of their friends. This quartet
continued drinking in the apartment.
There was another argument between Mr. Christen and the
quartet of friends. Mr. Christen retreated to his room, pointed towards
his handgun, and shut the door in his effort to be left alone. One of Mr.
Ravesteijn's friends, Mr. Mana Alyami, opened Mr. Christen's door. In
response, Mr. Christen picked up his handgun, and told the intruder to
get out of his room.
Mr. Christen began recording the situation on his iPhone. After
six minutes, Mr. Christen left his room to go to the kitchen. In case of
further confrontation, he tucked his handgun into his waist-band, and
continued filming the situation with his iPhone. While in the kitchen,
Mr. Christen held his iPhone in his right hand, and reached for string
cheese with his left hand. Mr. Alyami hit Mr. Christen in his chest and
grabbed Mr. Christen's handgun. Mr. Christen quickly retreated to his
room, closed the door, retrieved his secondary weapon, and called 911.
Police arrived, and shortly thereafter Mr. Christen was taken into
custody.

11

A criminal complaint was filed on February 6, 2018. On March
21, 2018, Mr. Christen filed a motion to have the charge of operating a
firearm while intoxicated dismissed on the grounds it violated his right
to bear arms and is unconstitutional as applied to the defendant. The
Circuit Court held a hearing on this motion on July 13, 2018, and ruled
the "statute is focused narrowly enough to withstand [the]
constitutional challenge that's been raised....It's operating the gun or
going armed with the gun. And I recognize the going armed aspect is a
little broad perhaps under some scenarios, but I don't think that the
definition of going armed is so broad that it makes it impossible for a
homeowner to enjoy constitutional rights to bear arms in the home."
Mr. Christen proceeded to trial and was found guilty of going
armed while intoxicated as well as disorderly conduct. A notice of
intent to seek post-conviction relief was filed the day of sentencing. A
timely notice of appeal was filed on September 13, 2019. Mr. Christen
filed his brief on November 20, 2019. The State of Wisconsin did not
file a response. On March 17, 2020, Judge Blanchard affirmed the
circuit court's ruling concluding Mr. Christen had not demonstrated
how Wis. Stat. §941.20(1)(b) violated his constitutional right to bear
arms. Mr. Christen petitioned the Supreme Court of Wisconsin for
review. The court accepted the case, and on May 4, 2021 issued a

12

decision affirming the constitutionality of Wis. Stat §941.20(1)(b) as
applied to Mr. Christen.
Reasons for Granting the Petition
It is well settled the Second Amendment protects an individual
right to keep and bear arms; this right vindicates the "basic right of
individual self-defense". Caetano u. Massachusetts, 136 S. Ct. 1027,
1028 (2016) (Auto, J., concurring). In the years since this Court
confirmed this basic and fundamental right, the lower courts have
"fail[ed] to afford the Second Amendment the respect due an
enumerated constitutional right". Siluester u. Becerra, 138 S. Ct. 945,
945, (2018) (Thomas, J., Dissenting from denial of certiorari). Heller
forbade an interest balancing approach, yet this is exactly the
methodology the lower courts have chosen, preferring to balance "a
variety of vague ethico-political First Principles whose combined
conclusion can be found to point in any direction the judges favor,"
rather than depending on "a body of evidence susceptible to reasoned
analysis." Heller u. District of Columbia, 670 F. 3d at 1274
(Kavanaugh, J., dissenting).
The dissension amongst the lower courts has lead to an
enumerated right being interpreted and protected differently in each
jurisdiction. This case presents a factually simplistic scenario with a

13

final judgement which will allow this Court to quash the dissension in
the lower courts and reverse the Supreme Court of Wisconsin's
erroneous decision evicerating the Second Amendment's protections.
I.

This Case Presents an Ideal Vehicle For in-Depth Constitutional
Analysis
The facts of this case are straightforward and simple. Mr.

Christen was intoxicated, at his home, and found himself in a situation
where it was necessary to go armed in case of confrontation. As he was
intoxicated when he armed himself, the State could, and did convict
him of endangering safety by going armed while intoxicated.
This case stems from a criminal conviction in which a final
judgment has been entered. No party can alter the laws and
regulations of the state in a manner which would cause the case to
become moot. See, N.Y. State Rifle & Pistol Ass'n v. City of New York,
140 S.Ct. 1525, 206 L.Ed. 2d 798 (2020). Additionally there are no
other legal or factual issues which could potentially cloud the scope of
review. This case rests entirely on the de novo analysis of
constitutional law: Does the consumption of a legal intoxicant void the
Second Amendment's guarantee of the right to carry a firearm in case
of confrontation?

14

II. The Lower Courts' Failure To Honor the Plain Language of Heller
and McDonald Has Led to Confusion, Chaos, and Disorder;
Granting Certiorari Is Necessary To Restore Reasoned Analysis to
Second Amendment Claims
The majority opinion in the Supreme Court of Wisconsin is
illustrative of the "doctrinal chaos" in the lower courts.2 Wisconsin, like
the majority of the federal circuits has adopted a two part test first
developed in United States v. Marzzarella.3,4 United States u.
See, David T. Hardy, Standards of Review, The Second Amendment, and Doctrinal
Chaos, 43 S. Ill. U.L.J. 91 (2018), Kopel, David B. and Greenlee, Joseph G.S., The
Federal Circuits' Second Amendment Doctrines, Saint Louis University Law Journal:
Vol. 61: No. 2 , Article 4. (2017)
2

3 In Marzarella, the Third Circuit was tasked with determining whether the Second
Amendment protects the right to own a firearm with an obliterated serial number.
Heller and Miller dictate the result: "the Second Amendment does not protect those
weapons not typically possessed by law-abiding citizens for lawful purposes" Heller at
625. The Third Circuit ignored the doctrine of constitutional avoidance and instead
determined a two-pronged interest balancing test was suggested by Heller. see e.g.
Pearson v. Callahan, 555 U.S. 223, 241, 129 S.Ct. 909 (2009). The Marzarella Court
explained its reasoning in a footnote; Heller's references to First Amendment
jurisprudence is the reason to adopt interest-balancing tests. The footnote fails to
address Heller's explicit rejection of an interest-balancing test and the existence of
categoricalism in other areas of Constitutional law.

States v. Marzzarella, 614 F.3d 85, 89 (3d Cir. 2010); Adopted in: NYSRPA,
Inc. v. Cuomo, 804 F.3d 242, 254 (2d Cir. 2015); United States v. Chester, 628 F.3d
673, 680 (4th Cir. 2010); NRA v. BATFE, 700 F.3d 185, 194 (5th Cir. 2012); United
States v. Greeno, 679 F.3d 510, 518 (6th Cir. 2012); Ezell v. City of Chicago, 651 F.3d
684, 701-03 (7th Cir. 2011) (but see Friedman v. City of Highland Park, 784 F.3d
406, 410 (7th Cir. 2015) ("[I]nstead of trying to decide what 'level' of scrutiny applies,
and how it works, inquiries that do not resolve any concrete dispute, we think it
better to ask whether a regulation bans weapons that were common at the time of
ratification or those that have 'some reasonable relationship to the preservation or
efficiency of a well regulated militia,' and whether law-abiding citizens retain
adequate means of self-defense.")) (internal citations omitted); United States v.
Chovan, 735 F.3d 1127, 1136-37 (9th Cir. 2013); United States v. Reese, 627 F.3d
792, 800-01 (10th Cir. 2010) ("Heller thus suggests a two-pronged approach to
Second Amendment challenges to federal statutes.") (internal quotations omitted);
GeorgiaCarry.Org, Inc. v. Georgia, 687 F.3d 1244, 1261 n.34 (11th Cir. 2012); Heller
v. District of Columbia (Heller II), 670 F.3d 1244, 1252 (D.C. Cir. 2011)

"United

15

Marzzarella, 614 F.3d 85, 89 (3d Cir. 2010). While the majority of the
lower courts agree laws which burden the Second Amendment must
receive more than rational basis scrutiny,5 the determination of the
level of review remains chaotic. Some circuits have developed a dual
standard of review, applying higher standards to serious

United States v. Booker, 644 F.3d 12, 25 (1st Cir. 2011) ("The Court made plain in
Heller that a rational basis alone would be insufficient to justify laws burdening the
Second Amendment"); Drake v. Filko, 724 F.3d 426, 436 (3d Cir. 2013) ("Heller
makes clear that we may not apply rational basis review to a law that burdens
protected Second Amendment conduct"); United States v. Huet, 665 F.3d 588, 600
(3d Cir. 2012) ("Although the Court did not decide on a level of scrutiny to be applied
in cases involving Second Amendment challenges, it rejected rational basis review.");
NRA v. BATFE, 700 F.3d 185, 195 (5th Cir. 2012) ("rational basis review, which
Heller held 'could not be used to evaluate the extent to which a legislature may
regulate a specific, enumerated right' such as 'the right to keep and bear arms.'");
United States v. Chester, 628 F.3d 673, 680 (4th Cir. 2010) ("Heller left open the
issue of the standard of review, rejecting only rational-basis review."); Hollis v.
Lynch, 827 F.3d 436, 446-47 (5th Cir. 2016) ("[If a] law impinges upon a right
protected by the Second Amendment. . . we proceed to the second step, which is to
determine whether to apply intermediate or strict scrutiny to the law.") (internal
quotations and brackets omitted); United States v. Skoien, 614 F.3d 638, 641 (7th
Cir. 2010) ("If a rational basis were enough, the Second Amendment would not do
anything— because a rational basis is essential for legislation in general.") (citations
omitted); United States v. Yancey, 621 F.3d 681, 683 (7th Cir. 2010) ("But though
Congress may exclude certain categories of persons from firearm possession, the
exclusion must be more than merely 'rational,' and must withstand 'some form of
strong showing.") (citations omitted): Ezell v. City of Chicago, 651 F.3d 684, 701 (7th
Cir. 2011) ("For our purposes, however, we know that Heller's reference to 'any
standard of scrutiny' means any heightened standard of scrutiny; the Court
specifically excluded rational-basis review.") (emphasis in original); Moore v.
Madigan, 702 F.3d 933, 939 (7th Cir. 2012) ("[A] ban as broad as Illinois's can't be
upheld merely on the ground that it's not irrational.");; United States v. Chovan, 735
F.3d 1127, 1137 (9th Cir. 2013) ("In Heller, the Supreme Court did not specify what
level of scrutiny courts must apply to a statute challenged under the Second
Amendment. The Heller Court did, however, indicate that rational basis review is not
appropriate."); Jackson v. City & Cty. of San Francisco, 746 F.3d 953, 960 (9th Cir.
2014) ("While Heller did not specify the appropriate level of scrutiny for Second
Amendment claims, it nevertheless confirmed that rational basis review is not
appropriate."); Bonidy v. U.S. Postal Serv., 790 F.3d 1121, 1141 (10th Cir. 2015)
(Tymkovich, J., concurring in part and dissenting in part) ("[W]hile the government's
justifications might suffice to uphold this regulation on rational basis review, Heller
demands more."); Heller v. District of Columbia (Heller II), 670 F.3d 1244,1256 (D.C.
Cir. 2011) ("Heller clearly does reject any kind of 'rational basis' or reasonableness
test . .")
5

16

infringements, or infringements to the "core" right.6 Of circuits using
this dual standard, several circuits at least purport to use strict
scrutiny when the challenged law seriously infringes on the Second
Amendment guarantees, or when the challenged law strikes at the
"core" right. Yet the Second Circuit only applies weighted scrutiny
when the challenged law both affects the core of the Second
Amendment and substantially burdens it. N.Y. State Rifle & Pistol
Ass'n v. City of New York, 883 F.3d 45, 56 (2d Cir. 2018). The Seventh
Circuit has rejected traditional means-end scrutiny, instead applying a
sliding scale dependent on how close a restriction comes to the core of
the right. Ezell v. City of Chicago, 651 F.3d 684, 708 (7th Cir. 2011).
The lower court's disdain for the Second Amendment is clear in
their self-determinate and circular analytical method.7 While this
Court has approved of interesting-balancing means-end scrutiny as a
method for several constitutional claims, the lower courts have
seemingly ignored these precedents as well. This Court has confirmed
6 See United States v. Decastro, 682 F.3d 160, 166 (2d Cir. 2012); Kachalsky v. Cty. of
Westchester, 701 F.3d 81,93 (2d Cir. 2012); Ezell v. City of Chicago, 651 F.3d 684,
703 (7th Cir. 2011); Jackson v. City & Cty. of S.F., 746 F.3d 953, 968 (9th Cir. 2014).
7 In determining the level of scrutiny to apply, the lower courts frequently assess how
close the law comes to the "core" of the Second Amendment, and the severity of the
burden on that right. In other words, the courts are determining how narrowly
tailored the restrictions are to determine whether to review the restriction under a
narrowly-tailored, least restrictive means test or simply requiring a reasonable fit.
Assessing the "fit" to determine how closely the law must "fit" in order to determine
its constitutionality creates a system in which any judge can justify any conclusion
they wish. This is simply not a sustainable or reliable mode of constitutional
analysis.

17

the right to possess and bear arms is a fundamental right; strict
scrutiny is the appropriate analytical methodology for fundamental
rights in means-end scrutiny. San Antonio Indep. Sch. Dist. u.
Rodriguez, 411 U.S. 1, 16 (1973); see, e.g., Reno v. Flores, 507 U.S. 292,
302 (1993); Clark v. Jeter, 486 U.S. 456, 461 (1988); Zauderer v. Office
of Disciplinary Counsel, 471 U.S. 626, 651 n.14 (1985); Perry Educ.
Ass'n v. Perry Local Educators' Ass'n, 460 U.S. 37, 54 (1983); Shapiro v.
Thompson, 394 U.S. 618, 638 (1969).; See also Lawrence v. Texas, 539
U.S. 558, 586 (2003)(Scalia, J., dissenting); Troxel v. Granville, 530
U.S. 57, 80 (2000)(Thomas, J., concurring in the judgement). The lower
courts have refused to recognize this as they fail to follow this Court's
binding precedent, slowly eviscerating the Second Amendment on a
case by case basis.
The analysis of Second Amendment claims is further
complicated by the split on what the core of the Second Amendment
actually is.8 The Fifth Circuit has held the core is the right of a lawabiding, responsible adult to use a handgun to defend his or her home
and family, while the Third Circuit recognizes the core right only as
defense of hearth and home. Nat'l Rifle Ass'n of Am., Inc. v. Bureau of
Alcohol, Tobacco, Firearms, & Explosives, 700 F. 3d 185, 195 (5th Cir.

8 see

e.g. Hardy, Standards of Review, The Second Amendment and Doctrinal Chaos,
94-95
18

2012); Marzzarella, 614 F. 3d at 94. The Fourth Circuit initially stated
a moderate view of the core right being "the right of a law-abiding,
responsible citizen to possess and carry a weapon for self-defense,
Chester, 628 F. 3d 673, 683 (4th Cir. 2010), but a year later, announced
a narrower view limiting the core right to self-defense to the home by a
law-abiding citizen. United States v. Masciandaro, 638 F.3d 458 (4th
Cir. 2011).
The Supreme Court of Wisconsin allegedly recognizes the "core"
of the Second Amendment protection to be the "right to possess or carry
a firearm for self-defense". Christen, 396 Wis.2d at 712 (Emphasis
added). In the same breath, the court contradicts itself, reasoning a
jury finding Mr. Christen did not act in self-defense removes his
possession of a firearm from the core of the Second Amendment's
protection.° Id. The right to bear arms refers to the right to wear, bear,
or carry upon the person or in the clothing or in a pocket, for the

The jury was instructed:
The law allows a person under the influence of an intoxicant to go armed with a
firearm if all the following circumstances are present:
1. The defendant reasonably believed he was under an unlawful threat of imminent
death or great bodily harm;
2. The defendant reasonably believed he had no alternative way to avoid the
threatened harm other than by doing armed with a firearm;
3. The defendant did not recklessly or negligently place himself in a situation in
which it was probably he would be forced to go armed with a firearm; and
4. The defendant went armed with a firearm only for the time necessary to prevent
the threatened harm.
The imposition of a multi-stage reasonableness test flatly ignores Heller's wise words
instructing courts that a constitutional guarantee which is subject to future
assessments of reasonableness and usefulness is no guarantee at all. Heller, at 634.
9

19

purpose of being armed and ready for offensive or defensive action in a
case of conflict with another person. Heller at 584, quoting Muscarello
o. United States, 524 U.S. 125, 143, 118 S. Ct. 1911 (1998). The
majority opinion misapprehends the difference between operating a
firearm in self-defense and going armed in case of confrontation.
Christen at 750 (Rebecca Grassi Bradley, J., dissenting)(Emphasis
added). That Mr. Christen did not act in self-defense has little to do
with his Second Amendment right to go armed in case of confrontation.
Id. The Supreme Court of Wisconsin's requirement a jury must find an
individual reasonably acted in self defense before recognizing the
individuals fundamental right to possess arms in case of confrontation
raises a serious question: Does the Second Amendment actually
guarantee anything in the State of Wisconsin?
III. Wisconsin Statute §941.20(1)(B) Is Plainly Unconstitutional As
Applied to Mr. Christen
The need for defense of self, family, and property is most acute
while in the home, a law which prohibits individuals from going armed
while intoxicated cannot constitutionally be applied to an individual
who goes armed in his own home. Christen, at 750 (Rebecca Grassl.
Bradley, J., dissenting). Under any mode of analysis Wis. Stat.
§941.20(1)(b) is unconstitutional.

20

Examining the text, history, and tradition surrounding the
Second Amendment, it is clear intoxication did not serve as a
qualification for dispossession. Prior to and after the ratification of the
Second Amendment, legislatures did not dispossess individuals from
the right to bear firearms while intoxicated. Justice R.G. Bradley
summarized the state of regulations concerning intoxication and
firearms at the time of the enactment of the Second Amendment in her
dissent:
From before the enactment of the Second Amendment through
the late-18th and early-19th centuries, legislatures did not limit
the individual right to bear arms while under the influence of an
intoxicant. Indeed, few colonial-era laws even regulated
the use of firearms while consuming alcohol, and none dealt
with carrying while intoxicated. See Mark Frassetto, Firearms
and Weapons Legislation up to the Early 20th Century (January
15, 2013).
This law had nothing to do with bearing a firearm while
drinking; instead, it prohibited shooting while drinking[.]
Other laws closely predating ratification of the Second
Amendment also indicate that early Americans regulated only
the shooting or operation of guns but not the act of bearing
them.
The realities of life in early America explain why individuals
under the influence of an intoxicant were able to carry arms
with no legal impediment. "In early America, drinking alcohol
was an accepted part of everyday life at a time when water was
suspect[.]" Bruce I. Bustard, Alcohol's Evolving Role in U.S.

History, Spirited Republic, Winter 2014, at 15, 15. "Farmers
took cider, beer, or whiskey into their fields," and ale would
often accompany supper for many early Americans. Id. From the
late-18th century until the mid-19th century, annual alcohol
consumption was on average much higher than present day. Id.;
21

see Bradley J. Nicholson, Courts-Martial in the Legion Army:
American Military in the Early Republic, 1792-1796, 144 Mil. L.
Rev. 77, 93 n.69 ("Heavy alcohol consumption was common in
early America.") (citation omitted). In 1790, the average early
American consumed approximately 5.8 gallons of alcohol
annually, a figure which rose to 7.1 gallons by 1830.
Bustard, supra, at 15. Contrast this to contemporary times,
during which the average American consumes only 2.3 gallons
per year. Id.
Christen, 762-766
The Supreme Court of Ohio disagrees with Justice R.G.
Bradley's analysis, and cites to four laws passed after the ratification
of the Fourteenth Amendment to illustrate the historical support for
criminalizing the possession of a firearm while intoxicated. State v.
Wever, 163 Ohio St.3d 125 1120, 2020-Ohio-6832 (2020)(Ohio). This
argument is fallacious. Constitutional rights are enshrined with the
scope it was understood that have when the people adopted it. Heller,
544 at 634. The Second Amendment was ratified on December 15,
1791. The four laws cited to by the Ohio Court are from 1868, 1883,
and 1909. The earliest of these laws was enacted 77 years after the
Second Amendment was ratifiedio "[T]lley do not provide as much
insight into its original meaning as earlier sources. Heller, at 614.
The historical sources pre-ratifiaction and closely thereafter
clearly indicate intoxication did not restrict the right to possess a
firearm. Generations after the enactment, several states began to

10 The life expectancy in the period surrounding the ratification of the Second
Amendment was only 38 years.
22

enact laws which conflict with the original intent of the Second
Amendment. When the later sources conflict with those at the time of
ratification, the sources at the time of ratification should control the
analysis. The Second Amendment protects an individuals right to
possess a firearm while intoxicated, but certainly permits States to
regulate the discharge of a firearm by an intoxicated person.
If this Court were to deviate from Heller and McDonald, and
apply the means-end scrutiny applied by the lower courts, strict
scrutiny must apply to a fundamental right particularly when and
where it is at its most elevated interest. Strict scrutiny requires a state
law to be narrowly tailored to achieve a compelling interest. Miller u.
Johnson, 515 U.S. 900, 920, 115 S. Ct. 2475. If there are other
reasonable ways to achieve the states compelling interest with a lesser
burden on constitutionally protected activity, a state may not choose
the way of greater interference. Id., at 64 quoting Attorney General of
New York v. Soto-Lopez, 476 U.S. 898, 909-10, 106 S. Ct. 2317.
The State's interest in protecting the public from unnecessary
injury caused by the use of a firearm by an intoxicated individual is an
important interest. However, Wis. Stat. §941.20(1)(b) does not require
a trigger to be pulled, or any actual harm to occur; it criminalizes the
mere possession of a firearm. The State's interest in protecting the

23

public from unnecessary injury is covered by two other statutes: Wis.
Stat. §940.24 criminalizes the negligent use of a dangerous weapon,
and Wis. Stat. §941.20(1)(a) allows the state to punish individuals who
are negligent in their operation or handling of a dangerous weapon and
endanger another's safety. Neither of these statutes impose a
significant burden on the Second Amendment as they allow for an
intoxicated individual to possess a firearm, as long as they do so in a
responsible manner. Surely intoxication could be a factor in the
determination of negligence, but the statutes only criminalize the
behavior when there is actual injury or endangering of another's
safety. These statutes demonstrate the State has less restrictive means
of enforcing its interest, and as such Wis. Stat. §941.20(1)(b) is not the
least restrictive means and must fail strict scrutiny analysis.
Conclusion
The "true palladium of liberty" has been under judicial assault
in the decade since this court decided Heller and McDonald. The lower
courts have failed to honor Heller and have restricted the scope of an
enumerated right, inventing a judge-empowering constitutional test
which allows judges to uphold any law restricting the right to keep and
bear arms on the basis of any principles judges choose to apply. Mr.
Christen respectfully request the Court grant certiorari in this case

24

and correct the course the lower courts have charted for Second
Amendment claims.
Dated: Tuesday, September 28, 2021
Respectfully submitted,

Steven Roy
Counsel of Record
1310 O'Keeffe Ave. #315
Sun Prairie, WI 53590
608.571.4732
Steven@StevenRoyLaw.com

25

